FEC -- Audit of FEC Compliance with the Government in Sunshine Act
Federal Election Commission
Office of Inspector General -- Audit Report
Audit of FEC Compliance with the Government in Sunshine Act:  Executive Summary
March 29, 1996
If you require the entire printed version of the audit report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
The Office of Inspector General recently completed a compliance
audit of the Federal Election Commission's enforcement of the
Government in Sunshine Act. The audit covered Calendar Years 1994
and 1995. The purpose of the audit was to determine if the
Federal Election Commission (FEC) was in compliance with key
administrative provisions of the Government in the Sunshine Act.
We found the FEC to be in compliance with the key administrative
provisions of the Government in Sunshine Act.  The key provisions
are public notification of meetings, recording and legal
certification of members' votes, the maintenance of complete
recordings/transcripts of meetings and the submittal of an annual
report to Congress.
This audit was designed to provide reasonable assurance about
compliance with the Sunshine Act.  In complying with Government
auditing standards, we obtained an understanding of management
controls that are relevant to this compliance audit.  Management
is responsible for establishing effective controls to ensure
compliance with laws and regulations.  Our report documents the
system in place to comply with the Act and the FEC 11 CFR Part 2
Sunshine Regulations; Meetings.
The Government in the Sunshine Act was enacted in 1976 and
declares that the public is entitled to the fullest practicable
information regarding the decision-making process of the Federal
government.  The Act requires agencies to open all their meetings
to public observation, except when it is anticipated that matters
exempt under the Act likely will be discussed.
Our audit focused on the administrative requirements of the
Government in Sunshine Act which requires federal agencies to:
(1)	Provide public notice of their meetings indicating such
items as the time, location, subject of the meeting,
whether the meeting is opened or closed to the public,
and the name and phone number of an agency official
designated to respond to requests for information about
the meeting.
(2)	Record members' votes to close meetings to the public
accompanied by a written statement explaining the
closing action, and supported by a certification by the
chief legal officer that the decision to close was
appropriate.
(3)	Maintain complete transcripts and/or electronic
recordings or minutes of the meetings.
(4)	Submit an annual report to Congress on their compliance
with the Act.
We reviewed the Act and FEC regulations, interviewed staff,
reviewed meeting records, documents, and announcements, and
listened to tapes. We selected a number of open and closed
meetings conducted during CY 1995 and verified that the
administrative procedures were followed.
We reviewed the FEC 1994 Sunshine Act Annual Report to Congress
for accuracy by verifying the number of meetings reported and
their classification as open or closed.  We also reviewed the
report's contents for compliance with requirements identified in
the law and other information requested by Congressional
subcommittees in 1995.
We did our field work between November 1, and December 22, 1995
in accordance with generally accepted government auditing
standards.